TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Private Debt Collection Program Was
                 Effectively Developed and Implemented, but
                 Some Follow-up Actions Are Still Necessary



                                          March 27, 2007

                              Reference Number: 2007-30-066




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 27, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Private Debt Collection Program Was
                             Effectively Developed and Implemented, but Some Follow-up Actions
                             Are Still Necessary (Audit # 200630022)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Private
 Debt Collection program (Program). The overall objective of this review was to evaluate the
 effectiveness of the IRS’ implementation of the Program.

 Impact on the Taxpayer
 To implement the Program, the IRS will use private collection agencies (hereafter referred to as
 PCAs or contractors) as an additional resource to help collect delinquent Federal taxes. In
 July 2004, the Department of the Treasury estimated the IRS will collect $1.4 billion through the
 Program over the next 10 years (Fiscal Years 2006-2015). Balance-due cases were first placed
 with three contractors on September 7, 2006. Overall, the IRS effectively developed and
 implemented several aspects of the Program, thus providing better assurance that taxpayer rights
 are protected and Federal tax information is secure. Specifically, contractor employees were
 adequately trained, background investigations were completed, telephone call monitoring and
 oversight procedures were established, and computer and physical security procedures were
 established before cases were assigned. However, the IRS needs to follow up on computer
 security issues, update procedure guides, and update the application used to calculate projected
 revenue.
                                   The Private Debt Collection Program Was
                                    Effectively Developed and Implemented,
                                but Some Follow-up Actions Are Still Necessary



Synopsis
As of September 30, 2006, the gross accounts receivable to the IRS totaled $271 billion. On
October 22, 2004, the President signed the American Jobs Creation Act,1 which created a new
Internal Revenue Code Section 6306 (2004) to permit PCAs to help collect Federal tax debts.
Overall, the IRS has taken proactive measures to effectively develop and implement the
Program.
      •    The IRS took appropriate steps to ensure contractor employees received sufficient and
           adequate training on applicable laws and regulations before allowing them access to
           Federal tax information. This included providing contractors with an orientation and
           overview of the training required and conducting an onsite assessment of the contractor
           training.
      •    The IRS required all contractor employees assigned to the Program contract, or who have
           access to Federal tax information, to undergo background investigations. The IRS
           granted either interim or final approval of background investigations for each employee
           working on the contract at the time of our review.
      •    The IRS established adequate oversight through telephone call monitoring, case action
           reviews, taxpayer satisfaction surveys, and a variety of other reviews to ensure
           contractors adhere to contract requirements and protect taxpayer rights.
      •    The IRS took appropriate and sufficient steps to ensure development and implementation
           of the Program were effective throughout the process. The IRS met regularly with the
           contractors to address concerns and issues, tested contractor systems for readiness and
           accuracy, and evaluated contractor computer and physical security.
      •    At the IRS’ request, the Treasury Inspector General for Tax Administration Office of
           Investigations participated in various implementation areas such as creating a training
           video for the contractors, participating in onsite contractor training, and reviewing
           various security issues.
Concurrent to our review, the IRS performed its own tests and analyses to identify and address
risks and concerns. After our audit work was completed, the IRS continued to monitor the PCAs
and, on February 14, 2007, announced the contracts for two of the PCAs had been extended
through March 8, 2008. The agency decided, and the third PCA agreed, that their contract would
not be extended.
While we identified several issues during implementation, the IRS resolved most concerns prior
to the initial placement of cases with the contractors. Nonetheless, some issues still need to be

1
    Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                                                                                     2
                             The Private Debt Collection Program Was
                              Effectively Developed and Implemented,
                          but Some Follow-up Actions Are Still Necessary



addressed. One contractor maintained Federal tax information on a computer server that was
also used to maintain data for four other contractor clients. Use of a shared server increases the
risk that Federal tax information may be inadvertently disclosed, lost, or stolen. Although use of
a single, dedicated server is not required, we believe this would strengthen security over Federal
tax information. One contractor was using Telnet to transmit Federal tax information. This
significantly increases the risk that Federal tax information may be inadvertently disclosed or
stolen. One contractor had not loaded antivirus software on its operating system or encryption
software on its laptops. This significantly increases the risk that Federal tax information may be
corrupted or disclosed. At both contractors, we identified computer security concerns about the
protection of Federal tax information and audit trails. While the security concerns are not as
significant as those noted previously, improvements could be made to better enhance computer
security. Many of the computer security issues identified, including the maintenance of data on a
shared server, were risks identified at the location of the contractor for which the IRS did not
extend the contract.
We also identified physical security concerns at both contractors that presented various
weaknesses. By the time we had concluded our onsite reviews, the contractors were in the
process of resolving some of the computer and physical security concerns. We were
subsequently notified by the contractors that they had resolved most of the concerns.
Some sections in the Program guides and handbooks need to be strengthened and/or clarified. If
procedures are not updated, these conditions could result in untimely suspension of contractor
collection action, unsatisfactory customer service, and unidentified or untimely identified
taxpayer complaints.
One contractor used an initial contact script that provided its employees with a very specific set
of questions to ask the taxpayer. Another contractor used a series of general questions and a
checklist of specific items for the employees to consider. The third contractor did not use an
initial contact script and relied upon training provided to employees to ask the appropriate
questions. There was no requirement for contractors to have scripts. However, we believe
taxpayer rights would be better protected if contractors were required to use scripts for all types
of telephone contacts with taxpayers and provide the scripts to the IRS, which could then review
and approve them.
Finally, the IRS hired a contractor to develop a revenue model and used this model to calculate
projected revenue based on the inventory the IRS plans to place with contractors. The IRS is in
the process of updating this model and the revenue projection goals, and we identified three
additional areas that we believe management should consider during this update. The IRS
should consider the impact of those taxpayers who opt out of the Program; the age of the cases
that will be assigned to the contractors; and the actual percentage of dollars being collected,
which was projected to be higher than those achieved by collection agencies used by other
Federal Government agencies.

                                                                                                  3
                                  The Private Debt Collection Program Was
                                   Effectively Developed and Implemented,
                               but Some Follow-up Actions Are Still Necessary



Recommendations
We recommended the Director, Collection, Small Business/Self-Employed Division, include in
the Request for Quotation2 a requirement for PCAs to maintain Federal tax information on a
separate server; follow up to ensure PCAs have completed their efforts to resolve the specified
computer and physical security concerns; update the Contracting Officer’s Technical
Representative3 and Telephone Monitoring and Case Action Review procedures to ensure
consistency and completeness; include in the Request for Quotation a requirement for PCAs to
provide a copy of scripts for all telephone contacts with taxpayers to the IRS, which will then
review and approve them; and continue updating and/or modifying the revenue model to ensure
the IRS appropriately accounts for the impact of taxpayers who opt out of the Program, the age
of the balance due, and the actual collection rate achieved.

Response
The IRS agreed with our recommendations and will address security issues in the next contract
negotiations and PCA security reviews, update policies to provide consistent and complete
instructions regarding taxpayer complaints, strengthen control of taxpayer contacts, and address
concerns in the revised revenue model. Management’s complete response to the draft report is
included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-5894.




2
  A Request for Quotation is a formal solicitation to sources outside of the Federal Government for offers to provide
products or services.
3
  Contracting Officer’s Technical Representatives are responsible for managing the PCA contracts and ensuring
compliance with requirements.
                                                                                                                    4
                                       The Private Debt Collection Program Was
                                        Effectively Developed and Implemented,
                                    but Some Follow-up Actions Are Still Necessary




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Has Taken Proactive Measures
          to Effectively Develop and Implement the Private Debt Collection
          Program.........................................................................................................Page 3
          Many Computer and Physical Security Concerns Have Already
          Been Addressed ............................................................................................Page 4
                    Recommendation 1:........................................................Page 8

                    Recommendation 2:........................................................Page 9

          Handbooks and Guides Were Revised to Address Most Concerns
          Regarding Procedural Consistency and Completeness.................................Page 9
                    Recommendation 3:........................................................Page 11

          Contractors Were Not Required to Have Scripts for Employees to
          Use When Contacting Taxpayers..................................................................Page 11
                    Recommendation 4:........................................................Page 11

          The Internal Revenue Service Should Continue Monitoring Revenue
          Projection Goals............................................................................................Page 12
                    Recommendation 5:........................................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Physical Security Concerns..................................................Page 20
          Appendix V – Management’s Response to the Draft Report .......................Page 21
                     The Private Debt Collection Program Was
                      Effectively Developed and Implemented,
                  but Some Follow-up Actions Are Still Necessary




                          Abbreviations

COTR                Contracting Officer’s Technical Representative
IRS                 Internal Revenue Service
PCA; contractor     Private collection agency
                                   The Private Debt Collection Program Was
                                    Effectively Developed and Implemented,
                                but Some Follow-up Actions Are Still Necessary




                                              Background

As of September 30, 2006, the gross accounts receivable
to the Internal Revenue Service (IRS) totaled                       One objective of the Private
                                                                   Debt Collection program is to
$271 billion. To help address this tax debt inventory,            use private collection agencies
the Department of the Treasury proposed that Congress            to help collect the $271 billion in
pass legislation authorizing the IRS to use private                  taxes owed to the Federal
collection agencies (hereafter referred to as PCAs or                      Government.
contractors) to help collect tax debts for simpler types of
cases. The IRS refers to this effort as the Private Debt
Collection program (Program).
On October 22, 2004, the President signed the American Jobs Creation Act,1 which created a
new Internal Revenue Code Section (§) 6306 (2004) to permit PCAs to help collect Federal tax
debts. The law allows PCAs to locate and contact any taxpayer specified by the IRS, to request
from such taxpayer full payment of the amount of Federal tax due, and to obtain financial
information with respect to such taxpayer. The law allows the IRS to retain and use an amount
not in excess of 25 percent of the amount collected by the PCAs for the cost of services
performed under a contract and an amount not in excess of 25 percent of the amount collected
for collection enforcement activities of the IRS.
According to the IRS, the three main objectives of the initiative to use contractors are to:
      •    Help to significantly reduce the growing number of uncollected tax liabilities.
      •    Help maintain taxpayer confidence in the fairness of the tax system by assisting the IRS
           in addressing more of its delinquent accounts.
      •    Assist the IRS in its continued focus to dedicate existing collection and enforcement
           resources on more difficult cases and issues.
The legislation provides that the provisions of the Fair Debt Collection Practices Act2 shall apply
to PCAs. The law also prohibits PCAs from committing any act or omission that IRS employees
are prohibited from committing in the performance of similar services. The legislation created
Internal Revenue Code § 7433A (2004) to permit civil actions by taxpayers for unauthorized
collection actions by employees of the PCAs. The law also amended § 1203 of the IRS




1
    Pub. L. No. 108-357, 118 Stat. 1418 (2004).
2
    15 U.S.C. §§ 1601 note, 1692-1692o (2000).
                                                                                                 Page 1
                                  The Private Debt Collection Program Was
                                   Effectively Developed and Implemented,
                               but Some Follow-up Actions Are Still Necessary



Restructuring and Reform Act of 19983 relating to termination of employment for misconduct to
include employees of PCAs, if such individuals committed any act or omission described under
subsection (b).
According to the IRS, contractors will be required to adhere to all taxpayer protections and will
be prohibited from threatening or intimidating taxpayers, or otherwise suggesting that
enforcement action will or may be taken, if a taxpayer does not pay the liability. The contractors
must also adhere to all security and privacy regulations for systems, data, personnel, and physical
security, and all taxpayer rights protections.
On March 9, 2006, the IRS awarded contracts to 3 firms from a field of 33 for the first phase of
the Program. On September 7, 2006, the IRS placed an initial inventory of 11,562 balance-due
accounts with the 3 contractors.
This review was performed in the IRS Small Business/Self-Employed Division in
New Carrollton, Maryland, and the contractor worksites of Pioneer Credit Recovery, Inc. in
Perry, New York; Linebarger Goggan Blair & Sampson, LLP in Austin and San Antonio, Texas;
and The CBE Group Inc. in Waterloo, Iowa, during the period April through December 2006.
The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




3
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C. , 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 2
                            The Private Debt Collection Program Was
                             Effectively Developed and Implemented,
                         but Some Follow-up Actions Are Still Necessary




                               Results of Review

The Internal Revenue Service Has Taken Proactive Measures to
Effectively Develop and Implement the Private Debt Collection
Program
Overall, the IRS effectively developed and implemented several aspects of the Program before
cases were assigned to the contractors. These include contractor employee training, background
investigations, and IRS oversight of the contractors.
   •   The IRS conducted an orientation and overview of the required training and other
       contract assistance needed for all contractor employees working on the Program.
       This event provided the contractors an opportunity to raise questions and clarify
       requirements. As observers of the event, we believe the IRS presenters were fully
       prepared and well versed in their subject areas. Overall, the orientation attendees
       expressed satisfaction with the training and the instructors. The attendees were then
       responsible for providing training sessions to their employees who were to be assigned
       IRS cases.
   •   The IRS conducted onsite assessments of the training sessions to ensure contractor
       employees were trained on the applicable laws and regulations. Topics required to be
       covered included the Fair Debt Collection Practices Act, IRS Restructuring and Reform
       Act of 1998 § 1203, and disclosure. The IRS reported the contractors conducted training
       sessions from August 8 through 30, 2006. Contractor employees were required to pass
       with a 70 percent or better rating in every examination taken. Those not passing were not
       allowed to work IRS cases or continue with the training. The IRS documented the
       contractors took appropriate actions to remove such employees from working on the
       contract.
   •   The IRS Personnel Security and Investigation Program office granted either interim
       or final approval of background investigations for all the contractor employees
       working on the contract at the time of our review. Contractors are required to submit
       to the IRS requests for background investigations for all employees assigned to work on
       the contract. On two separate occasions, we requested current lists of contractor
       employees working on the contract: one prior to and one subsequent to the placement of
       cases. We forwarded the lists to the Personnel Security and Investigation Program office
       to determine the status of the background investigations. Upon reviewing the response,
       we confirmed that contractor employees are not permitted to work on the private debt
       collection contract until approval has been granted. Also, we confirmed employees

                                                                                         Page 3
                                   The Private Debt Collection Program Was
                                    Effectively Developed and Implemented,
                                but Some Follow-up Actions Are Still Necessary



           whose approvals were denied had been appropriately and timely removed from working
           on the contract.
      •    The IRS established an adequate method to monitor the quality of work being
           performed by the contractors. The proposed IRS oversight, designed to ensure
           contractors adhere to contract requirements and the protection of taxpayer rights, includes
           telephone call monitoring and case action reviews by quality analysts, taxpayer
           satisfaction surveys, and a variety of reviews by the Contracting Officer’s Technical
           Representatives (COTR).4
      •    The IRS ensured it and the contractors were appropriately prepared. The IRS
           conducted regular meetings to plan and determine the status of implementation and to
           address concerns and issues; ran tests of the contractors’ systems to determine readiness
           and verify accuracy; conducted computer and physical security reviews at each contractor
           worksite; and established an independent review team to review contractor safeguards,
           processes, and procedures and to evaluate risks.
      •    The IRS engaged the Treasury Inspector General for Tax Administration Office of
           Investigations in the process. The Office of Investigations participated in various
           implementation areas such as creating a training video for the contractors, participating in
           onsite contractor training, and reviewing various security issues.
Concurrent to our review, the IRS performed its own tests and analyses to identify and address
risks and concerns. After our audit work was completed, the IRS continued to monitor the PCAs
and, on February 14, 2007, announced the contracts for two of the PCAs had been extended
through March 8, 2008. The agency decided, and the third PCA agreed, that their contract would
not be extended.
While we identified several issues during implementation, the IRS resolved most concerns prior
to the initial placement of cases with the contractors. Only a small number of issues still need to
be addressed.

Many Computer and Physical Security Concerns Have Already Been
Addressed
We conducted independent computer and physical security reviews at the worksites of two of the
three contractors awarded contracts to work on the IRS Program. We also participated as
third-party observers of the IRS review of physical security at the worksite of the third
contractor.



4
    COTRs are responsible for managing the PCA contracts and ensuring compliance with requirements.
                                                                                                      Page 4
                                  The Private Debt Collection Program Was
                                   Effectively Developed and Implemented,
                               but Some Follow-up Actions Are Still Necessary



Overall, we believe the contractors implemented a strong system of computer and physical
security controls. However, we identified the following concerns that presented a risk to
security. Except where noted, the concerns relate to only one particular contractor. Our onsite
reviews were conducted prior to the placement of cases with the contractors; therefore, the
contractors had not yet received Federal tax information.

Maintaining data on a shared server increases the risk of disclosure, loss, and
theft of Federal tax information
One of the contractors we reviewed used a separate, dedicated server5 to maintain Federal tax
information. The other contractor we reviewed maintained Federal tax information on a server
that was also used to store data for four other contractor clients. Using a shared server increases
the risk that Federal tax information may be inadvertently disclosed, lost, or stolen. Contractors
are required to ensure all account data are, at a minimum, partitioned off from other data
maintained on their computer systems. While a single, dedicated server for Federal tax
information is not required, we believe Federal tax information should be maintained on a
separate server to adequately protect against unauthorized disclosure while on a contractor’s
computer system. Subsequent to our onsite review, the IRS informed us it verified the contractor
had properly partitioned account data on its system.
The contractor that used the shared server used Telnet and Secure Shell to transmit Federal tax
information. We have security concerns about the contractor’s decision to use Telnet. This
compounds our concern over the use of a shared server. Telnet is a network protocol used on the
Internet or local area network connections. It is considered unsecure due to various security
vulnerabilities. Secure Shell is a set of standards and an associated network protocol that allows
users to establish a secure channel between a local and a remote computer. Secure Shell, which
provides greater security, was designed to replace Telnet.
There are three main reasons why Telnet is not recommended for modern systems from the point
of view of computer security:
    •    Commonly used Telnet daemons6 have several vulnerabilities discovered over the years,
         and several more probably still exist.
    •    Telnet lacks an authentication scheme7 that would make it possible to ensure
         communication is carried out between the two desired hosts and not intercepted in the
         middle.



5
  A server is a computer on a network (a group of two or more computers) that manages network resources.
6
  A daemon is a computer program that runs in the background, rather than under the direct control of the user.
7
  An authentication scheme is a method of verifying the sender and/or receiver (host) of a data transmission, to
ensure the data have not been intercepted or altered.
                                                                                                              Page 5
                                  The Private Debt Collection Program Was
                                   Effectively Developed and Implemented,
                               but Some Follow-up Actions Are Still Necessary



    •    Telnet, by default, does not encrypt8 data sent over the connection, thereby allowing
         intercepted data to be easily read and later used for malicious purposes.
Contractor management informed us they use Telnet because their other clients who share the
server with the IRS need Telnet to run their applications. However, using Telnet to transmit data
significantly increases the risk that Federal tax information may be inadvertently disclosed or
stolen. We were later informed by contractor management that they had resolved this issue by
developing the procedure to implement Secure Shell prior to the activation of Telnet when
transmitting data. Although Secure Shell was not designed to be used in conjunction with
Telnet, we believe this technique is sufficient to address our concern. However, the contractor
did not indicate whether it uses this technique when transmitting data to its other clients.
Because we had not considered this procedure during our onsite review of computer security, we
cannot report on the risks associated with the contractor transmitting data to its other clients
using a different technique.

Antivirus and encryption software are needed to provide an additional layer of
security
We noted, as did a contractor hired by the IRS to review computer security, that one PCA had
not loaded antivirus software on its operating system. We also noted the same PCA had not
loaded encryption software on the laptops of 16 individuals authorized to enter the worksite. At
the time of our review, the PCA had been unable to locate antivirus software compatible with its
operating system. Also, although PCA management’s anticipated completion date for laptop
encryption was subsequent to our onsite review, the IRS indicated the PCA agreed not to allow
the laptops to be removed from the worksite until after the software had been loaded.
Contractors are required to ensure all Federal tax information is protected from unauthorized
disclosure while on their computer systems and to protect and maintain the integrity of their
systems. Contractors should employ virus protection mechanisms at essential information
system entry and exit points (e.g., firewalls, routers, remote-access servers) and at workstations
or servers on the network. Contractors should update virus protection mechanisms (including the
latest virus definitions) when new releases are available.
Antivirus software is an additional layer of security needed to protect an operating system from
viruses and worms. Encryption software would protect data from unauthorized disclosure in
case a laptop is lost or stolen. When antivirus and encryption software are not installed, the risk
that Federal tax information may be corrupted or disclosed increases significantly.
We were later informed by PCA management that they had loaded encryption software on their
laptops. Also, although they stated they had not obtained antivirus software for their operating


8
  Encryption is the process of converting data into a secret code. To read an encrypted file, a user must have access
to a password that enables him or her to decrypt the data.
                                                                                                              Page 6
                                  The Private Debt Collection Program Was
                                   Effectively Developed and Implemented,
                               but Some Follow-up Actions Are Still Necessary



system, they indicated the issue was addressed with the IRS by implementing other security
measures within the Windows environment and by physically and logically locking the system
down to prevent the loading of any software onto the system.

Contractors enhanced computer security by addressing various concerns
We identified the following concerns related to the protection of Federal tax information and
audit trails. Each concern listed below is specific to either one or the other of the contractors we
reviewed. While we do not consider these concerns to be as significant as the issues identified
above, improvements could be made to enhance computer security.
     1. An unnecessary service on the router had not been disabled.
     2. There is no method in place for tracking system issues.
     3. Two risks identified by a contractor hired by the IRS to review computer security have
        not been properly addressed by the PCA.
     4. Audit logs have not been properly protected.
     5. Access control lists have not been applied to the CISCO9 switch.10
     6. Backup tapes are not marked as Federal tax information and stored separately.
     7. The contractor has not completed development of a policy to address the IRS’ concern
        regarding contractor managers having access to email.
     8. User accounts are not disabled timely.
These concerns could permit inappropriate access to the system, inappropriate user capabilities,
and unauthorized disclosure. Although we believe these issues need to be addressed, we did not
consider them significant enough risks to prevent the assignment of cases to the contractors.
Contractors are required to implement system security controls, safeguards, and mechanisms at
all levels of the system and application layers. Settings of information technology products must
be configured to the most restrictive mode consistent with information system operational
requirements. Also, the information system must be configured to provide only essential
capabilities and specifically prohibit and/or restrict the use of unnecessary functions, ports,11
protocols,12 or services. Access to Federal tax information is to be restricted to only those
persons whose duties or responsibilities require access; thus, information shall be clearly labeled
“Federal tax data.” Additionally, to avoid inadvertent disclosures, Federal tax information shall
be kept separate from other information.



9
  CISCO is a leading manufacturer of network equipment.
10
   A switch is a device that filters and forwards data files between computers within a network.
11
   A port is an access point into and out of a computer. The ports on a computer or server are used to connect to
communications lines and modems.
12
   A protocol is a convention or standard that controls or enables the connection, communication, and data transfer
between two computing endpoints.
                                                                                                             Page 7
                                  The Private Debt Collection Program Was
                                   Effectively Developed and Implemented,
                               but Some Follow-up Actions Are Still Necessary



While management of each contractor was in the process of addressing some of the concerns
listed previously, the remaining concerns were not considered or were simply overlooked. By
the time we concluded our onsite reviews, contractor management was in the process of
addressing concerns 2, 4, 5, and 6. We were later informed by management of each contractor
that they had resolved all of their respective issues. Many of the computer security issues
discussed above, including the maintenance of data on the shared server, were risks identified at
the location of the PCA for which the IRS did not extend the contract.

Contractors promptly resolved physical security concerns
The contractors implemented numerous physical security controls. Examples include requiring
employees to wear photo identification badges, controlling entry through key cards, securing the
work area with an alarm system, positioning video cameras at entrances, installing slab-to-slab
perimeter walls, and requiring visitors to obtain authorization prior to entering the work area.
Although several strong controls were in place, we identified a number of concerns at each
contractor worksite that we believe weakened physical security. Appendix IV includes a list of
the specific concerns.
In developing and implementing physical security controls, contractor management simply
overlooked these particular factors while focusing on other security measures. However,
contractor management immediately addressed our physical security concerns as we identified
them. By the time we had concluded our onsite reviews and briefed IRS management on our
results, all but one of the concerns had been addressed. Because contractor management
believed differentiating identification badges posed a security risk for their employees, they
deferred the issue to the IRS for its consideration and agreed to implement any changes the IRS
deemed necessary. Differentiating identification badges is not a requirement. However, due to
the existence of a secondary, unmonitored entrance, we believe implementing this action would
strengthen access controls. We were later informed by management of the respective contractor
that they had resolved this issue.

Recommendations
The Director, Collection, Small Business/Self-Employed Division, should:
Recommendation 1: Include in the Request for Quotation13 a requirement for PCAs to
maintain Federal tax information on a separate, dedicated server when the IRS expands the
Program to include additional contractors.
         Management’s Response: The IRS agreed with the recommendation. The Director,
         Collection, Small Business/Self-Employed Division, will include in the next Request for

13
  A Request for Quotation is a formal solicitation to sources outside of the Federal Government for offers to provide
products or services.
                                                                                                            Page 8
                                  The Private Debt Collection Program Was
                                   Effectively Developed and Implemented,
                               but Some Follow-up Actions Are Still Necessary



         Quotation, a requirement for PCAs to maintain Federal tax information on a separate,
         dedicated server.
Recommendation 2: Follow up to ensure the contractors have completed their efforts to
resolve computer and physical security concerns including implementing Secure Shell prior to
the activation of Telnet when transmitting data, loading encryption software onto laptops,
disabling the unnecessary service on the router, tracking system issues, protecting audit logs,
applying access control lists, labeling backup tapes as Federal tax information and storing them
separately, developing an email policy, timely disabling user accounts, and using differentiated
identification badges.
         Management’s Response: The IRS agreed with the recommendation. The Director,
         Collection, Small Business/Self-Employed Division, will follow-up with the PCAs to
         ensure all computer and physical security issues listed in the recommendation have been
         resolved.

Handbooks and Guides Were Revised to Address Most Concerns
Regarding Procedural Consistency and Completeness
The IRS developed several handbooks and guides for the Program. These documents provide
the procedures necessary to carry out the requirements of the Program contract. In reviewing the
procedures, we noted the following areas that needed to be strengthened and/or clarified.

Security procedures for handling taxpayer complaints could be strengthened
Taxpayer complaints regarding a contractor may be received either verbally or in writing from a
taxpayer or third party, self identified by a contractor, or identified by an IRS employee.
In evaluating draft procedures to determine whether the IRS had developed effective steps to
handle taxpayer complaints, we identified some noncritical areas that needed to be addressed by
management. The IRS was still in the process of perfecting the procedures at the time we
reviewed them.
     •   Despite Referral Unit14 procedures to inform taxpayers that someone from the IRS will
         contact them regarding complaints, the COTR procedures identify only one occasion
         when taxpayers will be contacted. The COTR will respond to taxpayers if a written
         complaint is received for a Type One15 complaint. However, there were no procedures


14
   The IRS Referral Unit is responsible for assigning cases to contractors; maintaining cases; recalling cases;
responding to inquiries from taxpayers, contractors, and IRS staff; and handling taxpayer complaints.
15
   Complaints are assigned a type code, based on the severity of the allegation(s). Rude behavior would be a
Type One complaint, intimidation would be a Type Two complaint, and a violation of the Fair Debt Collection
Practices Act would be a Type Three complaint.
                                                                                                             Page 9
                                 The Private Debt Collection Program Was
                                  Effectively Developed and Implemented,
                              but Some Follow-up Actions Are Still Necessary



         for contacting taxpayers when verbal complaints are received or when written Type Two
         or Type Three taxpayer complaints are received.
     •   The COTR procedures did not identify a time period for forwarding taxpayer complaints
         to the contractors.
     •   Procedures for the Telephone Monitoring and Case Action Reviews conducted by the
         IRS did not provide specific steps for reviewers to identify and report taxpayer
         complaints. Also, if a reviewer identifies an error or problem, which would include a
         taxpayer complaint, the procedures directing the reviewer to forward issues to the COTR
         once a week were not consistent with other procedures to forward complaints to the
         COTR either immediately or within 24 hours of receipt.
The Government Accountability Office Standards for Internal Control in the Federal
Government require significant events to be clearly documented. At the time we conducted our
review, IRS management was already in the process of revising procedures for the Telephone
Monitoring and Case Action Reviews to include steps for reviewers to identify and handle
taxpayer complaints. However, procedures still do not direct reviewers to immediately forward
taxpayer complaints to the COTR. Also, recently revised COTR procedures do not address the
issues noted above. If procedures are not updated, these conditions could result in untimely
suspension of contractor collection action, unsatisfactory customer service, and unidentified or
untimely identified taxpayer complaints.

The IRS clarified contractor procedures for suspending collection
The draft PCA Policy and Procedures Guide did not provide procedures to suspend contractor
collection action when the following conditions occur:
     •   During Referral Unit review of installment agreement16 requests within the contractor’s
         authority.
     •   When a taxpayer appeals a rejected installment agreement.
     •   When a contractor receives a verbal threat(s) from a taxpayer.
     •   Upon receipt of a taxpayer lawsuit referencing an account assigned to a contractor.
These conditions are identified as events warranting suspension of PCA collection action in
various other IRS Program procedure guides. Without clarification of procedures, contractors
may not suspend collection action timely on accounts with these conditions. However, after we
presented this information to IRS management, the PCA Policy and Procedures Guide was
revised to resolve all four issues.




16
  An installment agreement allows taxpayers to pay tax liabilities by making regular payments to the IRS over time
rather than all at once.
                                                                                                         Page 10
                              The Private Debt Collection Program Was
                               Effectively Developed and Implemented,
                           but Some Follow-up Actions Are Still Necessary



Recommendation
Recommendation 3: The Director, Collection, Small Business/Self-Employed Division,
should update the COTR procedures to identify a time period for forwarding taxpayer complaints
to the PCAs and for contacting taxpayers regarding verbal taxpayer complaints and written
Type Two and Type Three taxpayer complaints. Also, the Telephone Monitoring and Case
Action Review procedures should be updated to direct analysts to immediately forward taxpayer
complaints to the COTR.
       Management’s Response: The IRS agreed with the recommendation. The Director,
       Collection, Small Business/Self-Employed Division, will update the COTR and Quality
       Assurance Handbooks to incorporate instructions for responding to taxpayer complaints
       to address the issues identified in the recommendation.

Contractors Were Not Required to Have Scripts for Employees to Use
When Contacting Taxpayers
The Request for Quotation did not require the contractors to have a script to direct employees
through telephone conversations with taxpayers. However, if the contractor used an initial
contact script, the IRS reviewed and approved the questions and procedures. One contractor
used an initial contact script that provided its employees with a very specific set of questions to
ask the taxpayer. Another contractor used a series of general questions and a checklist of
specific items for the employees to consider. The third contractor did not use an initial contact
script and relied upon training provided to employees to ask the appropriate questions.
The IRS reviewed the initial contact scripts for the two contractors and asked one of the
contractors to change the script and it was appropriately changed. We reviewed the changed
scripts and determined the questions were appropriate and none of the questions violated
taxpayers’ rights. However, we believe taxpayer rights would be better protected if the Request
for Quotation required the contractors to use a script for all types of telephone contacts and
provide them to the IRS, which could then review and approve the scripts for every contractor.
This would also result in consistent approaches that the contractors take in contacting taxpayers
and better allow the IRS to perform a more consistent quality review, including the monitoring of
telephone calls. The IRS plans to expand the Program and issue a new Request for Quotation in
May 2007 soliciting more contractors.

Recommendation
Recommendation 4: The Director, Collection, Small Business/Self-Employed Division,
should include in the Request for Quotation a requirement for PCAs to provide a copy of scripts
for all telephone contacts with taxpayers to the IRS, which will then review and approve them.


                                                                                             Page 11
                                   The Private Debt Collection Program Was
                                    Effectively Developed and Implemented,
                                but Some Follow-up Actions Are Still Necessary



         Management’s Response: The IRS agreed with the recommendation. The Director,
         Collection, Small Business/Self-Employed Division, will include in the next Request for
         Quotation a requirement for PCAs to provide a copy of scripts for all telephone contacts
         with taxpayers to the IRS for review and approval.

The Internal Revenue Service Should Continue Monitoring Revenue
Projection Goals
The Department of the Treasury budget process requires annual revenue estimates for tax
proposals.17 A revenue estimate serves as a benchmark for measuring the effects of tax law
changes and is generally over a 10-year period. In July 2004, the Department of the Treasury
calculated a $1.4 billion estimate in revenue over the next 10 years (Fiscal Years 2006-2015) for
the tax proposal that permits contractors to help collect Federal tax debts.
The IRS hired a contractor to develop a revenue model and used this model to calculate projected
revenue based on the inventory the IRS plans to place with contractors. The IRS continuously
compared its inventory plans and revenue estimates to the Department of the Treasury estimates
through February 2006. The IRS revenue model estimates many factors, including:
     •   Standard Collection Curve – The model applies a standard collection industry curve for
         each case placement over a 12-month period to determine the number of cases on which
         some or all tax due was collected.
     •   Referrals for Enforcement – Estimated number of cases returned to the IRS for
         enforcement action.
     •   Unresolved Service Accounts (Recalls) – Estimated number of cases returned to the IRS
         due to other reasons (e.g., hardship,18 innocent spouse19).
     •   Administrative Resolutions – Estimated number of cases returned to the IRS due to death
         or bankruptcy of the taxpayer.
     •   Initial Ramp Up – The model shows a gradual increase in the assigned collection rate20 to
         allow the IRS and contractors to reach optimum performance and productivity.
We evaluated the revenue model to determine whether the IRS’ plans based on the model were
sufficient to achieve the goals set by the Department of the Treasury. The IRS is in the process
of updating the model and the revenue projection goals. To ensure revenue estimates are
accurate, we believe management should consider the following three issues when updating the
revenue projection goals.

17
   A tax proposal is a bill considering a change or modification to a provision of the Internal Revenue Code.
18
   A hardship means the taxpayer currently has no ability to pay the taxes.
19
   An innocent spouse is a taxpayer that can be relieved of responsibility for paying tax, interest, and penalties if his
or her spouse (or former spouse) improperly stated or underpaid the tax.
20
   The collection rate represents the percentage of dollars collected in comparison to the total balance due of the
cases placed with the contractors.
                                                                                                                Page 12
                                The Private Debt Collection Program Was
                                 Effectively Developed and Implemented,
                             but Some Follow-up Actions Are Still Necessary



Revenue projection does not account for the impact of taxpayers who opt out of
the Program
The IRS will be sending letters notifying taxpayers that their accounts have been assigned to a
contractor. Included with these letters is What You Can Expect When the IRS Assigns Your
Account to a Private Collection Agency (Publication 4518), which informs taxpayers they may
submit a written request to opt out of the Program if they do not wish to work with a PCA.
The revenue model does not include a factor to estimate the number of taxpayers who will elect
to opt out of the Program. The IRS indicated the ability for taxpayers to opt out is a unique
factor that has never been accounted for by either Federal Government agencies or private
industry. Therefore, there are no historical data on which to base an estimate to include in the
model.
Until the cases are assigned, the impact of taxpayers who elect to opt out of the Program cannot
be predicted. Therefore, as the IRS expands into assigning other types of cases to contractors,
the impact of taxpayers who opt out of the Program should be reexamined. While few taxpayers
have initially opted out, the number may increase as accounts assigned to contractors become
more complex.

Criterion has been adjusted to include older cases in the contractor inventory
The IRS has been continuously monitoring inventory levels for initial implementation of the
Program. The contractor provided the IRS with an interactive revenue model used for
long-range planning. The revenue model allows the IRS to change the inventory selection
criteria and determine the impact to projected revenue. The IRS reexamined inventory options
and changed case criteria to maximize revenue projections and make sure it has enough
inventory available to meet the capacity of the contractors. One change to the contractor
inventory involved increasing the age a case has been in an IRS collection status. The initial
Program criterion called for cases that had been in collection status for less than 1 year; however,
the age in status was increased to 2 years and then to 3 years.
The amount of time a case is in an IRS collection status is not the true age of the account
liability; it is the length of time the account has been assigned to that particular collection status.
We previously reported21 that, when the criterion for age in collection status was less than 1 year,
72 percent of the cases available for placement in the Program were more than 2 years old. Now
that the length of time in collection status has been increased, the cases being assigned are
probably even older. We reported that older debts are frequently more difficult to collect; thus
the change in case age criterion may limit the IRS’ ability to reach the Department of the
Treasury’s revenue goals for the Program. Management agreed the cases being assigned to the


21
   Management Needs to Continue Monitoring Some Case Selection Issues As the Private Debt Collection Program
Is Implemented (Reference Number 2006-30-064, dated April 2006).
                                                                                                    Page 13
                                 The Private Debt Collection Program Was
                                  Effectively Developed and Implemented,
                              but Some Follow-up Actions Are Still Necessary



contractors may be older but stated the contractors are willing to work the cases being assigned
while the IRS does not have the resources to work them.

The collection rate used by the IRS is higher than the industry standard
During the research phase of the Program, the IRS visited some Federal and State Government
agencies that have used contractors, to assess their best practices for tax collection. The Federal
Government agencies visited were the Department of the Treasury Financial Management
Service and the Department of Education; the State agencies included some in New Jersey,
Michigan, Georgia, Maryland, and Virginia. During the visits, the IRS obtained data from the
Department of Education and the Financial Management Service on their collection rates with
contractors; these data reflect an average collection rate of less than 3 percent. The IRS did not
request collection rate figures from the State agencies. However, the State of California has
announced it has referred more than $2 billion to private debt collection companies over the past
17 years, and $50 million (less than 3 percent) was actually recovered.22 Our research of the
Department of Education and Financial Management Service confirmed the collection rate of
3 percent.23
The IRS discussed the potential inventory selected for assignment with subject-matter experts to
determine the estimated collection rates used in its revenue model. The revenue model starts
with a lower collection rate and gradually increases it to a range of 10 percent to 15 percent of
the contractor inventory. This “ramp-up” factor, as previously stated, allows the IRS and
contractors time to reach optimum performance and productivity. As of December 31, 2006, the
contractors had collected $11.4 million of the $105 million in liabilities placed with them by the
IRS. This represents a collection rate of 10.5 percent. Based on the ramp-up factor, this rate
should continue to increase.
Other Federal and State Government agencies work balance-due cases for approximately
180 calendar days before turning them over to contractors; however, the IRS is being very
selective in the cases it assigns to contractors. For the initial phase, the cases placed are
individual taxpayers who have filed a tax return with a balance due.
Considering these factors, the IRS contractor collection rate should be higher than that achieved
by other Federal and State Government agencies. Management plans to adjust the collection rate
once the cases are worked by the contractors and data are available to determine a true collection
rate for types of cases. The IRS recognizes it will need to continuously monitor the collection
rate as it expands the types of cases assigned to contractors to work.




22
  The Tax Man and the Debt Collector Team Up (MSN Money, September 2005).
23
  Department of Education data relate to contractor performance from contract inception through June 2002.
Financial Management Service data relate to contractor referrals and collections as of April 2003.
                                                                                                        Page 14
                            The Private Debt Collection Program Was
                             Effectively Developed and Implemented,
                         but Some Follow-up Actions Are Still Necessary



Recommendation
Recommendation 5: As data become available, the Director, Collection, Small
Business/Self-Employed Division, should continue updating and/or modifying the revenue
model to ensure the IRS appropriately accounts for the impact of taxpayers who opt out of the
Program, the age of the balance due, and the actual collection rate achieved.
       Management’s Response: The IRS agreed with the recommendation. The Director,
       Collection, Small Business/Self-Employed Division, will begin a review of the revenue
       model in July 2007 and either construct a new revenue model or update the existing
       model based on actual performance. The updated or revised model will be available in
       November 2007.




                                                                                        Page 15
                             The Private Debt Collection Program Was
                              Effectively Developed and Implemented,
                          but Some Follow-up Actions Are Still Necessary



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of the IRS’ implementation
of the Private Debt Collection program (Program). To accomplish this objective, we:
I.     Evaluated the revenue projection goals and determined if the IRS’ plan was sufficient to
       achieve the goals.
II.    Identified the methods established to transmit Federal tax information and evaluated the
       procedures used to transmit data between the IRS and the contractors.
III.   Evaluated controls established to ensure taxpayer rights are protected.
       A. Determined if and how contractor employees were trained on the applicable laws and
          regulations and if the contractors certified in writing that the required training had
          been provided.
       B. Obtained and evaluated the Quality Assurance program established to monitor
          contractor activities to ensure there are no violations.
       C. Determined if the IRS developed an effective program to handle taxpayer complaints.
       D. Identified situations in which contractors are required to stop collection action and
          determined if procedures were in place.
IV.    Evaluated the proposed physical and data security controls over Federal tax information.
       A. Determined if a background investigation had been conducted on all contractor
          personnel working on the contract and if any employee who failed the background
          investigation had been barred from working on the contract with the IRS.
       B. Made physical visits to each of the three contractor worksites. At two of the
          worksites, we evaluated the adequacy of the physical security to be provided over
          Federal tax information. At the third worksite, we sat in as third-party observers
          while the IRS evaluated the adequacy of the physical security.
       C. Determined if the contractors implemented effective physical security safeguards to
          ensure protection of the information technology system. We determined if the
          computer systems processing, storing, and transmitting Federal tax information met
          or exceeded controlled access protection audit trails, identification/authentication
          controls, and access controls.



                                                                                          Page 16
                          The Private Debt Collection Program Was
                           Effectively Developed and Implemented,
                       but Some Follow-up Actions Are Still Necessary



     D. Analyzed the IRS’ plan to review the physical and data security at the contractors’
        worksites.
V.   Determined the method the IRS developed to monitor the quality of work being
     performed by the contractors and evaluated the adequacy of the proposed IRS oversight
     over the Program.




                                                                                      Page 17
                            The Private Debt Collection Program Was
                             Effectively Developed and Implemented,
                         but Some Follow-up Actions Are Still Necessary



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Amy L. Coleman, Audit Manager
Todd M. Anderson, Lead Auditor
Christina M. Dreyer, Senior Auditor
Michelle Griffin, Senior Auditor
Denise M. Gladson, Auditor




                                                                                        Page 18
                           The Private Debt Collection Program Was
                            Effectively Developed and Implemented,
                        but Some Follow-up Actions Are Still Necessary



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Project Director, Filing and Payment Compliance Modernization, Small Business/Self-Employed
Division SE:S:C:FPCMO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 19
                             The Private Debt Collection Program Was
                              Effectively Developed and Implemented,
                          but Some Follow-up Actions Are Still Necessary



                                                                                 Appendix IV

                       Physical Security Concerns

Prior to placement of cases with the contractors, we identified the following physical security
concerns during our onsite reviews of contractor worksites. Except where noted, each concern is
specific to one contractor. Management of each contractor immediately addressed our physical
security concerns as we identified them.
   1.  Perimeter doors did not have adequate locking mechanisms.
   2.  Two rooms were not wired to the alarm system.
   3.  The main entrance to the IRS work area was not monitored by a receptionist.
   4.  Identification badges of employees working on the contract were not differentiated from
       identification badges of unauthorized employees that work across the hall.
   5. At both contractor worksites, the visitor log was not reviewed to determine each visitor’s
       need for access.
   6. Six employees had keys to the IRS work area; one did not have a need for access to
       Federal tax information.
   7. On a couple of occasions, private mail service companies inappropriately delivered IRS
       contract-related mail to the contractor’s headquarters office located in the building next
       door.
   8. Employees were permitted to use their desk telephones for personal calls.
   9. Vendors were provided escorted access to the collection room.
   10. There were plans to provide one employee with control over both the unassigned key
       cards and the system that controls the access levels of the key cards.
   11. One employee was responsible for control over misdirected remittances.
   12. Procedures for handling significant conditions or situations that affect business operations
       had not been updated for computer security and had not been developed for physical
       security.
Concerns 1-6 represent a weakness in restricting access. Concerns 6-9 represent a weakness in
preventing unauthorized disclosure. Concerns 10 and 11 represent a weakness in providing a
separation of duties. Concern 12 represents a weakness in handling security breakdowns.
Contractors are required to provide secured collection office facilities and equipment to perform
tasks under the private debt collection contract. The specified area shall be restricted to
authorized IRS and contractor employees, and the area shall be physically separated from other
activity with walls and secured access per IRS security requirements. The facility must have a
locked and alarmed perimeter. Additionally, access to the space must provide an audit trail such
as a sign-in log, card reader, or computerized mechanical lock.


                                                                                          Page 20
           The Private Debt Collection Program Was
            Effectively Developed and Implemented,
        but Some Follow-up Actions Are Still Necessary



                                                  Appendix V

Management’s Response to the Draft Report




                                                         Page 21
   The Private Debt Collection Program Was
    Effectively Developed and Implemented,
but Some Follow-up Actions Are Still Necessary




                                                 Page 22
   The Private Debt Collection Program Was
    Effectively Developed and Implemented,
but Some Follow-up Actions Are Still Necessary




                                                 Page 23
   The Private Debt Collection Program Was
    Effectively Developed and Implemented,
but Some Follow-up Actions Are Still Necessary




                                                 Page 24
   The Private Debt Collection Program Was
    Effectively Developed and Implemented,
but Some Follow-up Actions Are Still Necessary




                                                 Page 25
